         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department of Energy's Use of
the Environmental Management
Waste Management Facility at the
Oak Ridge Reservation




DOE/IG-0883                                 April 2013
                                  Department of Energy
                                      Washington, DC 20585

                                           April 9, 2013


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's Use
                          of the Environmental Management Waste Management Facility at the
                          Oak Ridge Reservation"

BACKGROUND

The Environmental Management Waste Management Facility (EMWMF) is an above-ground
waste disposal facility designed to meet the requirements of the Comprehensive Environmental
Response, Compensation and Liability Act of 1980 (CERCLA). The Oak Ridge Office of
Environmental Management (OREM) manages the Department of Energy's (Department)
contract with URS | CH2M Oak Ridge, LLC (UCOR), which has operated EMWMF since
August 2011. EMWMF has six disposal cells with a maximum capacity of approximately
2.2 million cubic yards of low-level radioactive waste and mixed waste.

In 2011, a Department study of EMWMF, the Environmental Management Waste Management
Facility 2011 Capacity Assurance Remedial Action Report, documented an increase of
approximately 2 million cubic yards of needed disposal volume. This increase stemmed from
the addition of numerous facilities into the Environmental Management cleanup program, a
development which according to Department Management has been in discussion for several
years prior to 2011. The total capacity needed is expected to exceed 4.2 million cubic yards,
including waste already in the facility, future waste and additional clean fill required to mitigate
voids. EMWMF is projected to be filled by the end of Fiscal Year (FY) 2017, leaving a deficit
capacity of 2 million cubic yards.

Because of the projected capacity deficit and its potential impact on cleanup at the Oak Ridge
Reservation, we initiated this audit to determine whether OREM is effectively and efficiently
using EMWMF for the disposal of waste being generated by operations at the Oak Ridge
Reservation.

CONCLUSIONS AND OBSERVATIONS

OREM had not maximized its use of available capacity at EMWMF, and as a consequence, may
incur more than $14 million in unnecessary disposal costs. Specifically, OREM permitted its
contractors to send minimally contaminated waste1 to EMWMF that may have otherwise been
acceptable for disposal in the sanitary landfill at a much lower cost per unit. For example:

         Contractor officials told us that from FYs 2002 through 2011, they had disposed of
          140,000 cubic yards of material (minimally contaminated waste plus required fill) at
          EMWMF that likely could have been disposed of in the sanitary landfill at a much lower
          cost per unit; and,

         UCOR had also identified additional, similar material that is scheduled for future
          disposal in EMWMF. This minimally contaminated waste, when combined with the fill
          material, will consume as much as 100,000 cubic yards of EMWMF capacity.

The Department had not established site-specific surface authorized limits for determining when
certain types of minimally contaminated waste could be disposed of in sanitary landfills rather
than in EMWMF. In the absence of such site-specific authorized limits, certain
surface-contaminated wastes have been disposed of at EMWMF which potentially could
have been safely disposed at sanitary landfills.  Maintaining this approach could ultimately and
unnecessarily utilize 11 percent of EMWMF's waste disposal capacity. While the overall
percentage may not appear significant to some, the use of the conservative approach becomes
meaningful when the overall cost is considered – as much as $14.4 million in unnecessary
disposal costs.

During the course of our audit, UCOR recognized the issues we discovered and implemented
procedures compliant with Department and landfill permit requirements to allow more waste
to be disposed in the sanitary landfill. While this action is helpful, as outlined in the remainder
of our report, we believe that additional action to obtain site-specific authorized limits for the
surface contaminated materials at the onsite Oak Ridge Reservation landfills  is necessary to
improve efficiency of waste disposal operations and conserve EMWMF capacity.

Radiological Waste Disposal

OREM's contractors sent minimally contaminated waste to EMWMF that may otherwise be
acceptable for disposal in the sanitary landfill. For example, contractor officials told us that they
had disposed of at least 43,000 cubic yards of waste in EMWMF that previously had been
determined through analysis of its history to be minimally contaminated. With the addition of
the fill material needed to adequately compact the waste and fill void spaces in the disposal cell,
this resulted in approximately 140,000 cubic yards of capacity expended on waste that likely
could have been disposed in the sanitary landfill. Radiological waste determined to be
minimally contaminated may be either volumetrically contaminated, meaning contamination is


                                                            
1
  Although not a formal Department term, for the purposes of this report, "minimally contaminated waste" is defined
as waste reasonably expected to be cleared for disposal using only the site-specific authorized volumetric limits
already in place at the site, but that had been excluded because the waste acceptance criteria in place at the site
required that default surface limits from Department Order 5400.5, Radiation Protection of the Public and the
Environment, also be met.
 
                                                           2
 
incorporated within the material, or surface contaminated, meaning residual radioactivity is found
only on the surface of the material, building, equipment or other object and not distributed
throughout its volume or mass.
During the course of the audit, UCOR identified an additional 30,000 cubic yards of similarly
characterized material that is scheduled for future disposal in EMWMF. Using the fill ratio
multiplier provided by UCOR to determine the fill material needed to place this waste in the
disposal cell, we calculated that as much as 100,000 cubic yards of EMWMF capacity usage may
needlessly be expended on minimally contaminated waste.

Limits and Guidelines for Surface Contaminated Waste

OREM had developed volumetric requirements for disposing of radiological waste in the
sanitary landfill. It had not, however, developed site-specific authorized limits for placing
surface contaminated waste in the landfill. An authorized limit establishes the level of residual
radioactive material within or on property that cannot be exceeded in order to clear that
property for unrestricted or restricted release. The purpose of such limits is to provide
reasonable assurance that the Department's public radiation dose limit will not be exceeded.
These limits must also explicitly state any restrictions or conditions on future use of the property.
The authorized limits must be consistent with limits and guidelines established by other
applicable Federal and State laws. Specifically, the Department develops and approves the limits
and coordinates their implementation with the state to assure that placement of this waste
material in a landfill provides protection for the environment and public health, safety and
welfare of the citizens of the state.

In the absence of site-specific surface authorized limits that would permit minimally
contaminated waste to be placed in the landfill, OREM's contractors historically have interpreted
Department Order 5400.5, Radiation Protection of the Public and the Environment, to require
that a 100 percent radiological survey be performed on the surfaces of all suspect waste prior to
placement in the sanitary landfill. This practice often resulted in waste known through sampling
to be minimally contaminated to be disposed of in EMWMF. Contractors told us that they took
this approach because it was either too difficult or too costly to perform the extensive survey
required for disposal in the sanitary landfill. OREM contractors determined that management of
the materials as radioactive waste was more cost effective.

During the course of our audit, however, the Department took action to modify this restrictive
requirement and reduce the need for costly surveys. Prior to our audit, the then current sanitary
landfill waste acceptance criteria had been interpreted to require that, prior to disposal, porous
materials, including building debris, meet the authorized limits for both volumetric contaminated
waste, as established by OREM, and surface contaminated waste, as prescribed in Department
Order 5400.5. As a result of our audit, this potentially unnecessary requirement in the then
current landfill waste acceptance criteria was subsequently revised.  According to Department
officials, Department Order 5400.5 surface contaminations guidelines were designed for the
unrestricted release of waste materials to the public, as opposed to permanent disposal in a
controlled landfill. As such, both OREM and UCOR officials now believe that certain types of
porous material, including some building debris, should be managed under the existing
authorized limits for disposal of volumetrically contaminated waste without having to meet

                                                 3
 
surface contamination limits. According to OREM and UCOR officials, this would allow any
waste determined to be only volumetrically contaminated to be disposed in the sanitary landfill
under existing OREM requirements.

Increased Disposal Costs

The disposal of minimally contaminated waste in EMWMF caused the Department to incur
disposal costs that are higher than necessary. The cost to dispose of waste in EMWMF is at least
$60 more per cubic yard than disposing of waste in the sanitary landfill. In addition to the
140,000 cubic yards of capacity already taken up by minimally contaminated waste, the
Department may use up to an additional 100,000 cubic yards of capacity on waste slated for
future disposal in EMWMF. When combined, this amounts to as much as $14.4 million in
avoidable disposal costs, including up to $6 million for one waste stream alone. Department
officials informed us that a number of factors beyond cost must be balanced when executing
projects in the field, including schedule and safety. However, disposing of minimally
contaminated waste at EMWMF unnecessarily utilizes limited space in this special waste
disposal facility and will result in its premature filling and closing.

We noted that a number of other sites use or are in the process of evaluating the construction of
similar waste disposal facilities that will accept CERCLA waste. The facilities and sites
currently in use include the Environmental Restoration Disposal Facility near Richland,
Washington and the Idaho CERCLA Disposal Facility near Idaho Falls, Idaho. The Department
is also evaluating the construction of additional CERCLA facilities in Portsmouth, Ohio and
Paducah, Kentucky to support future cleanup activities at those sites. Activities at these sites
may also generate minimally contaminated waste. Therefore, the determination of an optimal
disposal path for this type of waste may yield savings similar to those we observed at the Oak
Ridge Reservation.

Planned Action

It is noteworthy that during the audit, OREM began working with UCOR to update the waste
acceptance criteria for the sanitary landfill to allow for waste to be processed as either volumetric
or surface contaminated, as appropriate. Also, while awaiting an update to the waste acceptance
criteria, UCOR began processing selected waste streams with approved, less stringent evaluation
methods that rely upon the knowledge of the waste's history and statistical sampling protocols.
According to UCOR officials, sanitary landfill requirements allow the disposal of waste from a
radiological facility based on existing knowledge that the waste is not radiologically
contaminated. This knowledge is available for a limited amount of the waste awaiting disposal
at the site. Therefore, UCOR implemented a sampling approach to confirm that the waste is not
radiologically contaminated. This practice has permitted additional waste to be disposed in the
sanitary landfill. However, unless additional limits and guidance are developed, waste will
continue to be disposed in EMWMF when the history of the waste is not available.

RECOMMENDATIONS

Our findings in this audit are, in our opinion, consistent with our Management Challenges
suggestion to prioritize cleanup efforts to ensure that the riskiest, most important items are
                                                  4
 
addressed in these lean budget times. Specifically, prioritizing the types of waste that can be
placed in EMWMF will help ensure the most efficient use of this valuable and limited resource.
Timely implementation of a revised approach is essential to reduce costs and conserve the
limited capacity of EMWMF. Additionally, if similar circumstances exist at other sites,
implementing this practice beyond the Oak Ridge Reservation could potentially save millions in
Department-wide disposal costs. Additional action is necessary to maximize CERCLA waste
disposal facilities. Accordingly, we recommend the Senior Advisor for Environmental
Management ensure that:

    1. Environmental Management assists OREM in the development of implementation
       criteria and survey protocols for determining when to use surface or volumetric
       authorized limits for the disposition of waste; and,

    2. Environmental Management sites review and evaluate ongoing and future
       decontamination and decommissioning projects to determine the best path for the
       disposal of any minimally contaminated waste.

We also recommend that the Manager, Oak Ridge Office of Environmental Management:

    3. Develop site-specific authorized limits for surface contaminated waste that maximize the
       Department's ability to safely and cost effectively dispose of minimally contaminated
       waste at the onsite sanitary landfill and coordinate the implementation with State of
       Tennessee officials.

MANAGEMENT AND AUDITOR COMMENTS

Environmental Management generally concurred with the report and its recommendations but
requested some clarification to Recommendations 1 and 3, as originally included in a draft of this
report. Regarding Recommendation 1, Environmental Management stated that while it agreed
with the importance of guidance, it did not believe that additional specific guidance is needed
regarding the use of surface and volumetric contamination criteria for waste disposal. We agree
that there are many guidance documents available regarding the clearance of personal property.
However, we believe assistance is needed for determining which specific waste materials must
meet surface activity criteria and which specific waste materials must meet volumetric
concentration criteria for disposal at onsite solid waste landfills. While some waste materials
generally will be appropriate for characterization using volumetric concentration criteria (e.g.,
soils), and others generally will be appropriate for characterization using surface activity criteria
(e.g., structural steel, sheet metal), still other waste materials may be more difficult to categorize
(e.g., porous or semi-porous materials such as concrete rubble or wood pallets). Accordingly, we
clarified Recommendation 1 to emphasize that assistance is needed for determining how to
implement the guidance that is currently available.

In response to Recommendation 3, Environmental Management agreed with the recommendation
in concept but requested a revision. It did not believe that the State of Tennessee should assist in
the development of authorized limits at OREM. Rather, Environmental Management believes
the limits should be developed by OREM and implementation of these limits should be

                                                  5
 
coordinated with the state. We have revised the recommendation to request that the
implementation of authorized limits for surface contaminated waste be coordinated with State of
Tennessee officials.

Environmental Management agreed with Recommendation 2 and stated it they will continue to
emphasize the best business practice of strategically planning future decontamination and
decommissioning, as well as soil and groundwater remediation projects, to optimize the disposal
of resultant waste.

We consider management's comments responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Acting Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Chief of Staff




                                               6
 
                                                                                  Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Department of Energy's (Department)
Oak Ridge Office of Environmental Management (OREM) is effectively and efficiently using
the Environmental Management Waste Management Facility (EMWMF) for the disposal of
waste being generated by operations at the Oak Ridge Reservation.

SCOPE

We conducted this audit from May 2011 through March 2013, at OREM in Oak Ridge,
Tennessee. The audit scope included waste disposal operations at EMWMF from October 2001
through March 2012.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed regulations, directives, contract requirements, and performance measures
        relating to EMWMF;

       Determined the approved capacity of EMWMF, the current capacity and future
        projections for capacity;

       Evaluated internal controls associated with operating EMWMF;

       Reviewed prior audits and reviews relating to EMWMF; and,

       Held discussions with key Department and contractor officials responsible for EMWMF.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions. The audit included tests of controls and compliance with laws
and regulations necessary to satisfy the audit objective. We also assessed compliance with the
GPRA Modernization Act of 2010. We examined performance metrics related to the EMWMF
and found that OREM had established performance measures as part of its Annual Performance
Plan. Because our review was limited, it would not have necessarily disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not rely upon
computer-processed data to accomplish our audit objective. We held an exit conference with the
Director, Office of Disposal Operations, on March 19, 2013.


                                               7
 
                          Attachment 2


    MANAGEMENT COMMENTS




             8
 
        Attachment 2 (continued)




    9
 
         Attachment 2 (continued)




    10
 
                                                                      Report No. DOE/IG-0883


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.




 
 



    This page intentionally left blank.




 
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
    

            

            

    

    

    




    
